SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8013
AMERICA  ASIA PACIFIC  EUROPE

PZIDLICKY@SIDLEY.COM

May 5, 2021
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

North American Meat Institute v. Rob Bonta, Attorney General of California,
et al., No. 20-1215

Dear Mr. Harris:
The North American Meat Institute (“NAMI”) submits this response to the extension
request filed by the private respondent-intervenors earlier today. NAMI opposes the
extension request for the same reasons set forth in NAMI’s letter of May 4, 2021, opposing
the state respondents’ extension request, which are incorporated herein by reference.
Respondent-intervenors suggest the urgency of this matter is “artificial.” Far from it.
As NAMI showed below and in its petition, Proposition 12 massively burdens interstate and
foreign commerce in pork and veal products, including by requiring farmers throughout the
Nation and abroad to spend hundreds of millions of dollars reconstructing their existing
facilities to satisfy California’s dictates or else suffer exclusion from the California market.
Proposition 12’s requirements for veal calves are already in effect and causing substantial,
ongoing harm; and the requirements for breeding sows take effect on January 1, 2022.
Granting respondents’ extension requests—which respondent-intervenors concede would
delay resolution of the petition until the long conference in September—would compound the
ongoing and impending harms of California’s unconstitutional regulatory overreach.
NAMI has diligently pursued relief in this Court by filing its certiorari petition in
February—approximately three months before it was due. Had respondents sought and
obtained a 30-day extension of their original April 2, 2021 deadline to respond, their briefs in
opposition would have been due earlier this week. Respondents instead made the strategic
decision to waive their response to the petition—which is supported by 20 States—and now
seek an additional 30-day extension of time when the Court requested a response.
Respondents should not be granted an extension that would further leverage their strategic
decision to waive a response and thereby prejudicially delay timely resolution of the petition
in this time-sensitive matter.

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

May 5, 2021
Page 2
Sincerely,
/s/Paul J. Zidlicky
Paul J. Zidlicky
Counsel for Petitioner
cc:

Samuel T. Harbourt
Bruce Andrew Wagman

